No.

In The
SUPREME COURT OF THE UNITED STATES

JAMES W. GILLIAM, Pro se,
Petitioner,
v.
DISCOVER BANK,
And
KERSCHENBAUM & PHILLIPS, P.C.,

Respondents.

PROOF OF SERVICE
I, JAMES W. GILLIAM, do swear or declare that on this date, July 3, 2021,
as required by Supreme Court Rule 29,1 have served the enclosed REVISED
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
29

The names and addresses
are:
Greenberg Traurig, LLP
By: Toby S. Soli, Esq.
Attorney for the
RespondentDISCOVER
BANK
MetLife Building
200 Park Avenue
New York, NY
10166

AND

Kirschenbaum & Phillips,
P.C.By: Michael L. Kohl,

Esq.
Attorney for the
Respondent Kirschenbaum
& Phillips, P.C.3018 *
Merrick Road
Wantagh, NY 11793

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on July 3,2021.

j/t)
JAMES W. gill:

30

, Pro se

